                                                                 Issue Date
                                                                          June 5, 2012
                                                                 Audit Report Number
                                                                          2012-LA-1007




TO:        William Vasquez, Director, Office of Community Planning and Development,
            9DD

           //Signed//
FROM:      Tanya E. Schulze, Regional Inspector General for Audit, Los Angeles Region
              IX, 9DGA

SUBJECT: Los Angeles Neighborhood Housing Services, Los Angeles, CA, Did Not
           Always Properly Administer Its NSP2 Grant


                                    HIGHLIGHTS

 What We Audited and Why

             We audited the Los Angeles Neighborhood Housing Services’ Neighborhood
             Stabilization Program 2 (NSP2). We performed the audit because American
             Recovery and Reinvestment Act of 2009 reviews are part of the Office of
             Inspector General’s (OIG) annual plan and Neighborhood Housing Services was
             awarded $60 million in Recovery Act NSP2 funds in a consortium agreement
             with 12 other organizations on February 11, 2010.

             Our audit objective was to determine whether Neighborhood Housing Services
             monitored its consortium members and ensured that its NSP2 expenditures were
             eligible and supported.

 What We Found


             Neighborhood Housing Services did not implement internal controls to monitor
             its consortium members or ensure that its NSP2 expenditures were eligible and
             supported. Its policies and procedures for property acquisition and rehabilitation
           were effective; however, its policies for disbursements and expenditures, as well
           as its monitoring of consortium members, were ineffective. Neighborhood
           Housing Services’ inadequate internal controls resulted in no reconciliation of its
           NSP2 drawdowns to its expenditures, instances of improper payments to a
           consortium member and other vendors, an ineffective internal audit function, and
           no assurance that consortium members performed the NSP2-funded activities.

What We Recommend


           We recommend that the Director of the Los Angeles Office of Community
           Planning and Development require Neighborhood Housing Services to (1)
           reconcile all NSP2 drawdowns to the expenses funded and repay any funds drawn
           for duplicate or non-NSP2-eligible expenses from non-Federal funds; (2)
           implement written procedures to ensure that its finance department follows all
           Federal regulations, including but not limited to ensuring that all drawndowns are
           tracked to the related expenditures and the U.S. Department of Housing and
           Urban Development’s (HUD) Disaster Recovery Grant Reporting system
           accurately reflects the amounts expended for each NSP2 activity; (3) implement
           written procedures to establish an effective internal audit function; (4) support the
           $30,000 paid to its consortium member or repay the amount from non-Federal
           funds; (5) repay the duplicate payment of $15,625 from non-Federal funds; and
           (6) revise and implement its monitoring policies and procedures to include
           monitoring all consortium members.

           For each recommendation in the body of the report without a management
           decision, please respond and provide status reports in accordance with HUD
           Handbook 2000.06, REV-4. Please furnish us copies of any correspondence or
           directives issued because of the audit.

Auditee’s Response


           We provided Neighborhood Housing Services a discussion draft report on May 4,
           2012, and held an exit conference on May 17, 2012. Neighborhood Housing
           Services provided written comments on May 29, 2012, and generally disagreed
           with our finding.

           The complete text of the auditee’s response, along with our evaluation of that
           response, can be found in appendix B of this report.




                                             2
                            TABLE OF CONTENTS

Background and Objective                                                         4

Results of Audit
       Finding: Neighborhood Housing Services Did Not Ensure That Its NSP2       6
                Expenditures Were Always Eligible and Supported or Monitor Its
                Consortium Members

Scope and Methodology                                                            12

Internal Controls                                                                14

Appendixes
   A. Schedule of Questioned Costs                                               16
   B. Auditee Comments and OIG’s Evaluation                                      17
   C. Criteria                                                                   24




                                            3
                         BACKGROUND AND OBJECTIVES

Los Angeles Neighborhood Housing Services, Inc., was incorporated in 1984 to promote the
restoration and revitalization of certain neighborhoods within the city of Los Angeles, CA.
Neighborhood Housing Services provides an array of services to improve social and physical
conditions in targeted neighborhoods. Core services include financial literacy education,
acquisition and rehabilitation of distressed property, affordable lending programs, and technical
assistance to homeowners who do not meet traditional commercial credit requirements.
Neighborhood Housing Services is organized to serve Los Angeles County.

The Neighborhood Stabilization Program 2 (NSP2) was authorized under Title XII of Division A
of the American Recovery and Reinvestment Act of 2009 and provided 56 grants nationwide on
a competitive basis totaling $1.93 billion. NSP2 was established to stabilize neighborhoods the
viability of which has been and continues to be damaged by the economic effects of properties
that have been foreclosed upon and abandoned. The NSP2 grant recipients included 37
consortiums, 3 nonprofits, 15 local government entities, and 1 State. These grantees were
selected on the basis of foreclosure needs in their selected target areas, recent past experience,
program design, and compliance with NSP2 rules.

The U.S. Department of Housing and Urban Development (HUD) awarded $60 million in NSP2
funding to Neighborhood Housing Services and executed a grant agreement with it on February
11, 2010. According to Neighborhood Housing Services’ NSP2 grant application, it proposed to
establish and lead a consortium with 121 other organizations that would carry out a broad range
of community development activities, including the acquisition and rehabilitation of single-
family homes and residential properties, downpayment assistance, and administrative activities,
including $150,000 for home-buyer counseling. Neighborhood Housing Services budgeted its
NSP2 funds to itself and its consortium members2 as follows:




1
  Neighborhood Housing Services’ NSP2 grant application provided for a consortium of itself and 12 other
organizations; however, it executed consortium agreements with only 9 other organizations.
2
  One of Neighborhood Housing Services’ consortium members, Watts Century Latino Organization, was not
specifically included in its NSP2 budget; however, it paid Watts for its home-buyer counseling services from its $6
million budgeted administrative costs.


                                                         4
                               Activity and budgeted NSP2 funds
Responsible     Single-family        Multifamily        Down-
                                                                 Administrative                     Totals
  entity       acquisition and     acquisition and     payment
                                                                     costs
                rehabilitation      rehabilitation    assistance
Asian American Drug Abuse Program
                                       $920,000                                                     $920,000
ANR Industries, Inc.
                   $125,000                                                                         $125,000
City of Carson
                  $1,000,000                         $1,000,000                                    $2,000,000
City of Compton
                  $3,000,000                         $1,000,000                                    $4,000,000
City of Inglewood
                   $500,000                           $250,000                                      $750,000
Los Angeles Neighborhood Housing Services
                 $16,575,000          $2,900,000    $15,100,000   $6,000,000                      $40,575,000
Search to Involve Pilipino Americans
                                      $5,500,000                                                   $5,500,000
Vermont Slauson Economic Development Corporation
                   $187,500           $1,680,000                                                   $1,867,500
Vermont Village Community Development Corporation
                   $262,500           $4,000,000                                                   $4,262,500
Totals           $21,650,000         $15,000,000    $17,350,000   $6,000,000                      $60,000,000

 The grant agreement required Neighborhood Housing Services to expend 50 percent of the grant
 by February 11, 2012, and expend 100 percent of the grant by February 11, 2013. However, it
 had expended only 45.08 percent of its grant as of its 50 percent expenditure deadline on
 February 11, 2012. As a result, HUD placed it on a workout plan. As part of the workout plan,
 Neighborhood Housing Services was required to submit a written plan detailing how it would
 meet the 100 percent expenditure requirement by February 2013, with one condition being that it
 was required to accept technical assistance that would evaluate the viability of its proposed plan
 for its NSP2 funds. At the time of our audit report, the Los Angeles Office of Community
 Planning and Development and HUD headquarters in Washington, DC, were awaiting the results
 of the technical assistance.3

 According to Neighborhood Housing Services, before receiving the NSP2 grant, it had received
 approximately $322,000 in HUD-related funding annually as a subrecipient through
 NeighborWorks America and local municipalities.

 Our audit objective was to determine whether Neighborhood Housing Services monitored its
 consortium members and ensured that its NSP2 expenditures were eligible and supported.




 3
     Since HUD was addressing the matter, we did not pursue or identify the issue as a finding.


                                                             5
                               RESULTS OF AUDIT

Finding: Neighborhood Housing Services Did Not Ensure That Its NSP2
         Expenditures Were Always Eligible and Supported or Monitor
         Its Consortium Members
Neighborhood Housing Services’ policies and procedures for its NSP2 disbursements and
expenditures, as well as its monitoring of consortium members, did not ensure compliance with
regulations. Specifically, Neighborhood Housing Services did not reconcile its NSP2
drawdowns to its expenditures, made improper payments to a consortium member and other
vendors, did not develop an effective internal audit function, and did not always monitor its
consortium members. It was not always aware of its responsibilities as a HUD grantee under
NSP2 and did not know that it needed to monitor all of its consortium members. As a result,
there was a risk that its NSP2 drawdowns may not have been for eligible and supported
expenditures in all cases. In addition, more than $45,625 in questionable expenditures could
have been used for other eligible NSP2 activities, and there was no assurance that consortium
members performed the NSP2-funded activities.



 No Reconciliation of
 Drawdowns

              For the most part, Neighborhood Housing Services was completing its single-
              family acquisition and rehabilitation activities in accordance with NSP2
              regulations. However, it did not maintain sufficient documentation to support its
              draw requests, and it could not properly trace each of its drawdowns to the
              activities it funded. Neighborhood Housing Services was not able to match
              purchase rehabilitation expenses to HUD’s Disaster Recovery Grant Reporting
              (DRGR) system funding drawdowns. While attempting to reconcile the
              drawdowns for our audit, it identified inaccurate properties, properties already
              identified under other draws, and properties not fully supported to the amounts
              drawn. As a result, we were not able to reconcile which properties had been
              funded with which draw or whether Neighborhood Housing Services drew funds
              for the same property multiple times.

              This issue extended to Neighborhood Housing Services’ administrative expenses.
              It did not keep track of which administrative expenses were funded with which
              drawdown. Further, it did not record administrative expenses as such in its
              accounting system. As a result, it could not provide a valid universe of NSP2
              administrative expenses after three attempts, indicating a risk that administrative
              expenses were improperly recorded in HUD’s DRGR system.




                                               6
          Historically, Neighborhood Housing Services drew its NSP2 funds based on
          estimated monetary needs in advance of spending the money, resulting in the
          drawn amounts not matching up with the actual amounts expended. Although this
          advance draw is allowed by NSP2 guidance, 24 CFR (Code of Federal
          Regulations) 84.21(b)(2) also requires recipients’ financial management systems
          to provide for records that adequately identify the source and application of funds
          for federally sponsored activities. Neighborhood Housing Services did not revise
          the vouchers after expending the funds to appropriately record the actual amount
          expended or ensure that property acquisitions were ultimately recorded under the
          correct activity. For instance, it may have drawn money for its acquisition
          activities in one city but ultimately spent the money for a property in another city
          after the initial property was determined unfeasible, and it did not record this
          change in DRGR. As a result, DRGR may reflect inaccurate amounts for
          Neighborhood Housing Services’ NSP2 activities.

          Further, Neighborhood Housing Services could not show which NSP2 expenses
          the individual drawdowns were used for, and, ultimately, there was no assurance
          that the funds were spent on activities that were eligible and supported.
          Neighborhood Housing Services’ staff members indicated that they were not
          aware of the requirement to identify the application of their NSP2 funds.
          Although Neighborhood Housing Services’ practices could demonstrate that it
          spent its entire $60 million NSP2 grant at the conclusion of its 3-year expenditure
          deadline, they did not provide assurance that it did not draw down twice for the
          same activity or fund ineligible activities during the 3-year period.

Improper Payments

          Neighborhood Housing Services paid $30,000 to one of its consortium members
          for startup administrative costs and providing home-buyer education and
          counseling to families participating in its NSP2 program; however, it did not
          obtain documentation to support the performance of those activities. Under the
          applicable consortium agreement, the consortium member was required to report
          to Neighborhood Housing Services monthly (1) client demographic information
          and sign-in sheets for the participants in its home-buyer education program and
          (2) an outreach report including outreach materials, the number of participants
          reached, and a description of the geographic area targeted. However,
          Neighborhood Housing Services did not have any of the applicable
          documentation to support the $30,000 payment to the consortium member.

          Further, Neighborhood Housing Services made a duplicate payment of $15,625
          for professional service fees for June 2010. When we brought the duplicate
          payment to their attention, Neighborhood Housing Services staff members
          admitted to paying the June 2010 invoice twice and stated that they would obtain
          the $15,625 from the vendor. Specifically, Neighborhood Housing Services
          planned to deduct the amount from future payments for work performed by the



                                           7
             vendor. However, this method did not guarantee that the money would be repaid
             to NSP2, as Neighborhood Housing Services may not have been netting it against
             invoices for NSP2 expenses.

             In addition, Neighborhood Housing Services paid a duplicate payment of $250 for
             lead remediation. However, the check had not been cashed, so staff members
             were able to issue a stop payment for the check after we brought it to their
             attention.

             Lastly, Neighborhood Housing Services undercharged NSP2 by $1,948 and
             $10,989 for June 2010 and September 2011 salary expenses, respectively. It did
             not accurately record its salary expense for either month tested. The amounts
             charged to the program used inaccurate wages and allocation percentages for
             various employees and left out an employee. Although the expense was
             understated for the months in question, the lack of internal controls presented a
             risk that the expense could have been overstated during other periods.


Ineffective Internal Audit
Function

             Neighborhood Housing Services’ internal audit function was not in accordance
             with applicable criteria. Section (IV)(A)(3)(f) of the NSP2 notice of funding
             availability requires NSP2 recipients to have an internal audit function that “will
             continually examine potentially risky areas of program operations and
             management and provide regular and valuable feedback to program managers and
             to those who hold them accountable. This feedback will include identification of
             risky management practices and missing or ineffective internal controls, areas that
             are not in compliance with program requirements, and ineffective implementation
             of established policies.” Neighborhood Housing Services was able to provide a
             list of consortium member meeting dates and meeting minutes, indicating that
             they met regularly to discuss the program through management meetings.
             However, the minutes focused primarily on NSP status updates rather than the
             internal audit function required by the notice. Further, given that Neighborhood
             Housing Services did not maintain sufficient documentation to support its draw
             requests and could not properly trace each of its drawdowns to the activities it
             funded, its internal audit function was not effective.

             Neighborhood Housing Services staff members cited their internal controls as the
             organization’s internal audit function. Those controls included having the chief
             financial officer, NSP2 program director, and NSP2 project manager monitor each
             step in the acquisition, rehabilitation, and resale of each property purchased and
             determining a property’s feasibility for NSP2 before acquisition. Further,
             Neighborhood Housing Services used an outside contractor to provide quarterly
             monitoring of the consortium members that provided construction management
             services for the organization. However, it did not conduct an internal review of



                                              8
           its own finance department, from which the majority of the issues identified
           originated. Neighborhood Housing Services indicated that the outside contractor
           had not conducted a review of its finance department because it wasn’t qualified
           for such a review, and despite HUD’s suggesting that it hire an alternative
           contractor to review the finance department, Neighborhood Housing Services had
           not scheduled an internal audit of its finance department as of March 26, 2012. It
           said that it had not done so because none of the consultants HUD recommended
           had been available for it to schedule.

Incomplete Monitoring of
Consortium Members


           Although Neighborhood Housing Services hired an outside contractor to provide
           quarterly monitoring of the consortium members performing construction
           management services, it had not monitored the remaining consortium members.
           It indicated that this was because it monitored only those consortium members
           that were paid construction management fees. However, not all consortium
           members were paid construction management fees. As detailed above,
           Neighborhood Housing Services paid $30,000 to one of its consortium members
           without documentation to support the performance of NSP2-funded activities.
           Therefore, it should monitor all of its consortium members to ensure that they
           comply with their consortium agreements and earn any NSP2 funds paid,
           regardless of the type of fee.

           In addition, Neighborhood Housing Services did not have sufficient written
           monitoring policies and procedures in place. Its grant application included a
           lengthy section on the grantee’s intended monitoring plan and internal audit
           function, allowing it to take an active role in monitoring its consortium members.
           However, those intended plans had not been formalized in its NSP policies and
           procedures. Section III of its written monitoring procedures consisted of one
           sentence, generally stating that the “LA NHS [Neighborhood Housing Services]
           will perform on-site compliance and monitoring inspections of all single-family
           and multi-family developments utilizing NSP2 funds to determine compliance
           with the applicable regulations and requirements.” A brief section on its
           requirements for subrecipients or development partners stated that Neighborhood
           Housing Services would “monitor Subrecipients (or Development Partners) to
           ensure the NSP2 funds are being used in accordance with all program
           requirements and that Subrecipients (or Development Partners) are adequately
           performing as required under subrecipient agreements and procurement contracts.
           If performance problems arise, LA NHS will take appropriate actions as described
           in 24 CFR 570.910.” There was no detail regarding how the monitoring would be
           conducted, and the $30,000 unsupported payment showed that monitoring did not
           always take place as set forth in the NSP2 policies and procedures.




                                            9
Finance Staff Turnover

             Neighborhood Housing Services’ lack of effective procedures and controls
             regarding the administration of the NSP2 funds was exacerbated by turnover
             among key finance staff members, including its chief financial officer and its
             NSP2 finance manager in 2011. In addition, two of the three other finance
             employees had worked at Neighborhood Housing Services less than a year.
             During audit fieldwork, its interim chief financial officer had trouble obtaining
             and interpreting information from previous periods due to the prior chief financial
             officer’s practice of tracking information outside the accounting system.


Conclusion

             Neighborhood Housing Services did not reconcile its NSP2 drawdowns to its
             expenditures, made improper payments to its consortium members and other
             vendors, did not develop an effective internal audit function, and did not always
             monitor its consortium members. It was not always aware of its responsibilities as a
             HUD grantee under NSP2 and did not know that it needed to monitor all of its
             consortium members. The lack of effective procedures and controls regarding the
             administration of the NSP2 funds was exacerbated by turnover among key finance
             staff members. As a result, there was a risk that Neighborhood Housing Services’
             NSP2 drawdowns may not have been for eligible and supported expenditures in all
             cases. In addition, more than $45,625 in questionable expenditures could have been
             used for other eligible NSP2 activities, and there was no assurance that consortium
             members performed the NSP2-funded activities.

Recommendations

             We recommend that the Director of the Los Angeles Office of Community
             Planning and Development require Neighborhood Housing Services to

             1A.    Reconcile all NSP2 drawdowns to the expenses funded and repay any
                    funds drawn for duplicate or non-NSP2-eligible expenses from non-
                    Federal funds.

             1B.    Implement written policies and procedures to ensure that its finance
                    department follows all Federal regulations, including but not limited to
                    ensuring that all drawdowns are tracked to related expenditures and
                    DRGR accurately reflects the amounts expended for each NSP2 activity.

             1C.    Support the $30,000 paid to its consortium member, showing activities
                    performed, or repay the amount from non-Federal funds.



                                              10
1D.   Repay the duplicate payment of $15,625 from non-Federal funds.

1E.   Implement written procedures to establish an effective internal audit
      function.

1F.   Revise and implement its monitoring policies and procedures to include
      the monitoring of all consortium members.




                               11
                        SCOPE AND METHODOLOGY

We performed our onsite work at Neighborhood Housing Services’ office located at 3926
Wilshire Boulevard, Suite 200, Los Angeles, CA, between October 2011 and March 2012. Our
audit generally covered the period February 2010 through March 2012. We expanded our scope
as necessary.

To accomplish our audit objective, we

      Obtained an understanding of the Recovery Act, Neighborhood Housing Services’ grant
       agreements with HUD, and its planned activities for its NSP2 funds.

      Reviewed applicable HUD requirements.

      Reviewed relevant Neighborhood Housing Services policies and procedures for
       administering NSP2.

      Reviewed Neighborhood Housing Services’ DRGR quarterly performance report and
       audited financial statements from fiscal years 2009, 2010, and 2011.

      Reviewed HUD’s relevant monitoring report.

      Interviewed HUD officials from the Office of Community Planning and Development,
       Los Angeles field office, and Neighborhood Housing Services’ supervisors and staff as
       appropriate.

      Reviewed job descriptions and the organizational charts for Neighborhood Housing
       Services.

      Selected a sample to test whether Neighborhood Housing Services conducted its NSP2
       activities in accordance with HUD rules and regulations.

      Reviewed Neighborhood Housing Services’ records pertaining to property acquisition,
       rehabilitation, resale, expenditures, and disbursements

We nonstatistically sampled 3 of 10 (30 percent) properties that were acquired and rehabilitated
with NSP2 funds and sold as of the date of our sample selection. The three contracts reviewed
were the properties with the highest acquisition costs for each of the three consortium members
that provided construction management services to Neighborhood Housing Services for the
sampled properties. In addition, we nonstatistically sampled 6 of 56 (10.7 percent) drawdowns
for purchase and rehabilitation activities. The six drawdowns reviewed represented 16.3 percent
of the total grant funds that had been drawn down at the time of our sample selection.

We were able to perform only limited testing of Neighborhood Housing Services’ administrative
expenses due to unreliable computer-processed data on the applicable universe (see finding). We


                                               12
nonstatistically selected nine NSP2 administrative expense records from the questionable
download of NSP2 administrative expense data. However, two of the nine expenses were not
administrative expenses. The remaining seven expenses reviewed totaled almost $511,071.

We chose our sampling approach since testing 100 percent of the population was not feasible.
Therefore, the sampling results apply only to the items tested and cannot be projected to the
universe or population.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective.




                                               13
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

      Effectiveness and efficiency of operations,

      Reliability of financial reporting, and

      Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls


               We determined that the following internal controls were relevant to our audit
               objective:

                     Implementation of policies and procedures to provide reasonable
                      assurance that NSP2 program activities meet objectives and operations are
                      effective and efficient.

                     Implementation of policies and procedures to reasonably ensure that
                      relevant and reliable financial information is obtained and fairly disclosed
                      in reports.

                     Implementation of policies and procedures to ensure that NSP2 activities
                      are in accordance with applicable laws and regulations.

               We assessed the relevant controls identified above.

               A deficiency in internal control exists when the design or operation of a control does
               not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on a
               timely basis.



                                                 14
Significant Deficiencies


             Based on our review, we believe that the following items are significant deficiencies:

                Neighborhood Housing Services lacked internal controls to ensure compliance
                 with Federal laws and regulations (see finding).

                Neighborhood Housing Services did not always monitor its consortium members
                 (see finding).




                                              15
                                   APPENDIXES

Appendix A

                 SCHEDULE OF QUESTIONED COSTS

                  Recommendation            Ineligible 1/   Unsupported 2/
                         number
                                1C                                 $30,000
                                1D                $15,625

1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or Federal, State, or local
     policies or regulations.

2/   Unsupported costs are those costs charged to a HUD-financed or HUD-insured program
     or activity when we cannot determine eligibility at the time of the audit. Unsupported
     costs require a decision by HUD program officials. This decision, in addition to
     obtaining supporting documentation, might involve a legal interpretation or clarification
     of departmental policies and procedures.




                                             16
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation                           Auditee Comments



             May 28, 2012

             Tanya E. Schulze
             Regional Inspector General for Audit
             Region IX
             611 West Sixth Street, Suite 1160
             Los Angeles, CA 90017-3101

             Re:       Response to draft audit report for NSP2

             Dear Ms. Schulze,

             Per the exit conference held with your staff regarding the IG audit of the Los Angeles
             Neighborhood Housing Services (NHS) and its monitoring of the NSP2, we have prepared a
             response to the audit findings. As noted at the meeting, in general we found the audit draft
             accurately reflected some of the issues faced by NHS and its consortium members in
             implementing the program. However, we also found that there were inaccuracies noted in the
             report by the IG staff which we have documented as a part of our formal comments and would
             like to have included in the report.

             Finding: Neighborhood Housing Services Did Not Ensure That Its NSP2 Expenditures
                             Were Always Eligible and Supported or Monitor Its Consortium Members

             The finding refers to NHS activities on a broad scale versus some of the specific issues that
             may have been found during a specific time period of NHS implementing NSP2. During the
             time period of the IG audit, NHS had several instances of improper reconciliations, one
             overpayment to a vendor, and one consortium member that needed improved monitoring.
             NHS also provided extensive internal audit functions in every area except the Finance unit,
             which it requested technical assistance support from HUD. To date, that assistance has not
             been provided, and each of the suggested consultants recommended by HUD have not been
             available to assist in this audit area.

             A. No Reconciliation of Drawdowns

             The period discussed in the audit results covers February 2010 to March 2012. However, the
             IG audit team focused the major portion of its testing on the 2010 calendar year and early
Comment 1    administrative portion of the NSP2 effort. NHS had limited knowledge and experience in
             administering the program during that time period, and the DRGR has significantly changed
             since that time as well. NHS has subsequently instituted the following controls:

                   1) No draws are initiated as an advance for the program or without all of the proper
Comment 2             documentation from local vendors, contractors or internal reconciliations.
                      Drawdowns are only submitted through the DRGR when accompanied by an
                      approved draw request attached to a purchase contract or vendor invoice.


                                                    17
                2) In the event that the acquisition cannot be completed after it has been submitted to
                   DRGR, the NSP2 Finance Manager will go back into DRGR and de-obligate the
                   funds for that draw.

                3) All documentation for draws is reviewed and approved by the NHS Chief Financial
                   Officer, prior to submission to the NHS President & CEO for submission approval
                   through DRGR.

            NHS provided multiple source documents that reflected proper usage of NSP2 funds and
            expenditures, and that in fact, NHS had not charged substantial costs to the program service
            delivery area that were allowable. It is our belief that the most significant issue was that NHS
Comment 3   had been “undercharging” the true costs of the Program, and that the Administrative budget
            (and NHS’ own financial resources) had been overcharged for numerous costs that should
            have been charged to program delivery costs. NHS has initiated a cost recovery project so that
            incurred expenses can be properly recorded.

            B. Improper Payments

            NHS has worked diligently to provide hundreds of payments to approved contractors, vendors
            and Consortia members in its management of the NSP2. Given the high volume of payments,
            and some staff turnover, NHS experienced several improper payments.

                1.    The IG audit found that there was a lack of documentation for a $30,000 expenditure
                      to one consortium member, WCLO for homebuyer education services. The
                      documentation of usage by WCLO for $30,000 expended from NSP2 funds was
                      provided to                 and                            at the time of the exit
Comment 4             interview. It should be noted that NHS made numerous attempts to collect the
                      appropriate documentation from this Consortium member and had significant
                      difficulty obtaining the information until now. In addition, NHS had planned to
                      expend up to $150,000 with this Consortium member, but ended up only expending
                      $30,000 because the member had not provided adequate documentation. Therefore,
                      some of our monitoring efforts worked, but could have been improved upon.

            NHS effectively monitored all of its other Consortium members and conducted ongoing audits
            of their work efforts. For any members who did not meet the agreed upon contract
            requirements, their funding was de-obligated, and future production under NSP2 cancelled.
            NHS then covered the obligatory requirements and has had success in completing the required
            production elements.

                2.    NHS made a duplicate payment to one vendor for professional services rendered.
                      NHS plans to repay the duplicate payment out of non-NSP2 funds. NHS also
                      initiated collection efforts from the vendor and is awaiting repayment. To avoid
Comment 2             duplicate payments, NHS’ Finance Department no longer pays invoices that are not
                      original invoices. All payments must be made from an original invoice (no copies are
                      accepted for payment).

Comment 2       3.     Additionally, invoices are logged into the system by invoice date and invoice
                      number.

                     *Names redacted for privacy reasons



                                                 18
            As noted previously, NHS consistently undercharged NSP2 for program delivery and
            administrative expenses. Despite the reference by the IG team that expenses “could have been
            overstated during other periods”, this was consistently proven to be false. NHS initiated its
Comment 2   own expense reconciliation project while the IG was on site and consistently found that it was
            funding the NSP2 out of its own resources. During subsequent HUD monitoring visits, it was
            also found that NHS undercharged the NSP2 program on an ongoing basis.

            C. Ineffective Internal Audit Function

            The IG audit found that NHS’ internal audit function was not in accordance with applicable
            criteria. However, there was only one department (out of seven) within NHS that the IG team
            felt had failed to provide adequate internal audit controls. In fact, the others were well
            documented and in compliance. When NHS requested assistance from HUD to help with the
Comment 5   Finance unit’s internal audit function, HUD suggested four consultants that were on their
            approved list to provide the audit function or technical assistance. To date, none of these
            approved consultants have been available to provide assistance. Therefore, NHS began its
            own internal audit of the Finance unit, and has subsequently hired a Quality Control and
            Compliance Manager to perform substantial internal audit functions.

            NSP2 consortium meetings are held with the intent of giving members a forum to discuss
            issues and processes. These meetings were not held with the intent of being the venue for
            internal auditing.

            D. Incomplete Monitoring of Consortium Members

            The auditor’s comments in this section repeatedly quote regulations for “sub-recipients”. NHS
            has no NSP2 sub-recipients. NHS has Development Partner agreements with each of its
            consortia members. Further, comments were made that NHS should monitor all of its
            consortium members to ensure that they comply with their consortium agreements. NHS
            monitored all members who performed production contract work under the NSP2 program.
Comment 6
            There were three consortium members who performed no production contract work because
            they were researching potential multi-family property acquisitions. Their efforts have been
            well documented, and to date, neither NHS, nor its members have acquired any multi-family
            properties, nor has NHS paid these consortium members any production or contract fees.

            It was suggested by both HUD staff and the IG audit team that NHS follow the policies and
            procedures set forth in its initial proposal. Accordingly, NHS has updated its NSP2
            monitoring policies and NHS’ Finance staff is adhering to the written policies and procedures
            included with the original NSP2 proposal. The CFO is providing oversight to ensure
            compliance by staff.

            NHS takes issue with the finding and conclusion drawn by the IG staff that describes our
            overall program effort as lacking NSP2 drawdown reconciliations and proper controls,
            uninformed, making improper payments and monitoring of consortium members and lacking
Comment 7   the development of effective internal controls. While we agree that the financial management
            component of the NSP2 program needed improvement, NHS successfully implemented many
            critical components of the program that helped it to expend nearly $30 million during the audit
            period.

            When the IG team found one example of something, it then took a “broad brush” of the overall
Comment 7   program without adequately representing the broad picture of the program effort. As was
            noted numerous times during the audit by the IG team, “we all have been learning the
            requirements




                                                 19
            for implementing the NSP2 program”. Despite numerous obstacles, NHS and its consortium
            members have strived to accomplish the program goals and objectives.

            NHS has implemented the following program improvements:

            1A. The audit did not take into account the significant changes with the DRGR reporting
            system that subsequently allowed for NHS to better track its expenditures on a more detailed
Comment 8   basis. NHS staff underwent significant DRGR training as the system was improved and now
            report on a detailed basis so that all NSP2 drawdowns are reconciled. NHS also initiated its
            own internal audit of NSP2 reconciliations and found that it had consistently undercharged the
Comment 2   program for eligible NSP2 activities. NHS has begun the process of reconciling past
            drawdowns to bring all program charges to a current basis, and accurately reflecting the
            amounts expended.

            1B. NHS has revised and implemented its written policies and procedures to ensure that its
Comment 2   Finance team follows all Federal regulations.

Comment 4   1C. NHS provided the support documentation for the $30,000 paid to its consortium member
            for activities performed for homebuyer education services.

            1D. NHS plans to repay the duplicate payment of $15,625 from non-Federal funds and will
            provide the local HUD office with adequate documentation upon repayment.

Comment 2   1E.     NHS has revised and is implementing the written procedures required to provide
            effective internal audit functions and has hired a Quality Control and Compliance Manager.
Comment 9   We have attached a sample internal control document as a further sample of our compliance
            review efforts.

Comment 2   1F. NHS has revised and is implementing it monitoring policies and procedures, and has
Comment 4   already been monitoring all of its consortium members despite the IG’ comments to the
            contrary.

            Thank you for your review and consideration of our formal comments.

            Sincerely,




            Lori R. Gay
            President & CEO

            Cc:




                                                 20
                         OIG Evaluation of Auditee Comments

Comment 1   Our sample selections were based on the highest acquisition costs or expenses, as
            applicable (see Scope and Methodology). We did not focus our testing on any
            given time frame, other than our general scope, which was February 2010 through
            March 2012. The three properties we tested were acquired between September
            2010 and April 2011 and sold between July and November 2011. The six
            drawdowns we tested were made between January and June 2011, and the seven
            administrative expenses we tested were dated between June 2010 and September
            2011. Therefore, these sample items represent a total time period of June 2010
            through November 2011, or 17 months.

Comment 2   We acknowledge the Neighborhood Housing Services’ proactive approach to
            implementing our recommendations and making other improvements; however,
            the auditee did not provide any documentation to support its assertions or revised
            procedures. HUD will evaluate Neighborhood Housing Services’ adjustments
            and corrections as part of audit resolution.

Comment 3   We acknowledge Neighborhood Housing Services provided source documents
            that reflected proper usage of NSP2 funds for the three properties we tested that
            were acquired and rehabilitated with NSP2 funds and sold as of the date of our
            sample selection. As we cited in our report, for the most part, Neighborhood
            Housing Services was completing its single-family acquisition and rehabilitation
            activities in accordance with NSP2 regulations. However, that does not excuse
            Neighborhood Housing Services from maintaining documentation to reconcile
            and support its draw requests.

Comment 4   We had previously requested supporting documentation for the WCLO charges
            during the course of audit field work and Neighborhood Housing Services
            informed us it did not have documentation to support the performance of the
            applicable activities. The “Cost Analysis Report” was not provided by
            Neighborhood Housing Services until the exit conference. We reviewed this
            documentation and determined it was still insufficient to meet the requirements of
            the applicable consortium agreement. The Cost Analysis Report only included
            one of the elements required by the consortium agreement, indicating the number
            of outreach materials distributed. However, the report did not include any of the
            other required elements, including a basic client report including client
            demographic, financial, and area median income information; sign-in sheets for
            every home-buyer education class; the Neighborhood Housing Services home-
            buyer education survey; or an outreach report with outreach materials, the number
            of participants reached, and a description of the geographic area targeted.
            Therefore, Neighborhood Housing Services’ monitoring of WCLO was
            insufficient and the amount remains unsupported.

Comment 5   Neighborhood Housing Services told us during on-site audit field work that the
            same outside contractor used to monitor its consortium members had also



                                            21
            conducted internal reviews of Neighborhood Housing Services; however, despite
            repeated requests, it did not provide documentation of those reviews.
            Specifically, we requested documents pertaining to its internal audit function,
            noting that we had received copies of monitoring reports for its consortium
            members but nothing indicating Neighborhood Housing Services had reviewed its
            own internal practices. We did not specify any departments within the auditee’s
            operations as part of this request. Neighborhood Housing Services then cited its
            internal controls as the organization’s internal audit function, as stated in the audit
            report. We did not specifically determine the other six departments had adequate
            internal audit functions, as implied by the auditee’s response. Our finding
            focused on the lack of internal review of the Neighborhood Housing Services’
            finance department because that was where the majority of the issues identified
            during the audit originated. Implementing an effective internal audit function is a
            step above and beyond the internal controls used to mitigate risk in day to day
            activities. There was no effective internal audit function in place at
            Neighborhood Housing Services outside of the monitoring conducted for some of
            its consortium members.

Comment 6   The procedures we quoted that used the term “subrecipients” were taken from the
            Neighborhood Housing Services’ NSP2 policies and procedures. As indicated by
            the Criteria Appendix C, the auditee’s procedures use the term subrecipients
            multiple times within Section III, General Requirements of NSP2, although we do
            acknowledge the full context of the narrative includes “or Development Partners”
            in parenthesis after each mention of subrecipients, as indicated by the full criteria
            included within Appendix C. We initially excluded the “(or Development
            Partners)” within the narrative of our report for readability, but we have added
            that clarification to coincide with the full criteria outlined within the Appendix.

Comment 7   We acknowledged the Neighborhood Housing Services’ program successes
            throughout the audit report, as appropriate. For instance, we noted Neighborhood
            Housing Services was completing its single-family acquisition and rehabilitation
            activities in accordance with NSP2 regulations for the most part, that the auditee
            had hired an outside contractor to provide quarterly monitoring of some of its
            consortium members, and that auditee staff had taken a proactive approach to
            recoup improper payments as soon as we brought them to the staff’s attention.
            However, we must present issues identified during the course of on-site audit field
            work. Our audit included assessing Neighborhood Housing Services’ procedures
            and controls applicable to our audit objective and testing of a nonstatistical
            sample of items, since testing 100 percent of the universe of transactions was not
            practical (see Scope and Methodology). We believe the level of testing was
            sufficient to draw the conclusions discussed in the finding.

Comment 8   We acknowledge that DRGR did not originally have a text field for the person
            setting up the drawdown voucher to enter notes to make reconciliation and
            tracking easier; however, DRGR has always allowed the person approving the




                                              22
            voucher to enter notes, as well as providing its users the ability to revise
            previously approved drawdowns to apply the funds for alternate activities.

Comment 9   We did not receive the “sample internal control document” Neighborhood
            Housing Services intended to include with its response.




                                             23
Appendix C

                                        CRITERIA
Regulations at 24 CFR 84.21(b)(2) require recipients’ financial management systems to provide
for records that adequately identify the source and application of funds for federally sponsored
activities. These records must contain information pertaining to Federal awards, authorizations,
obligations, unobligated balances, assets, outlays, income, and interest.

The notice of funding availability for NSP2 under the American Recovery and Reinvestment Act
of 2009, Docket No. FR-5321-N-01, Section (IV)(A)(3)(f), requires

      NSP2 recipients to have an internal audit function that “will continually examine
       potentially risky areas of program operations and management and provide regular and
       valuable feedback to program managers and to those who hold them accountable. This
       feedback will include identification of risky management practices and missing or
       ineffective internal controls, areas that are not in compliance with program requirements,
       and ineffective implementation of established policies.”

      Community Development Block Grant grantees to have “a plan for monitoring all
       program activities and ensuring performance.”

The consortium funding agreement between Neighborhood Housing Services and its consortium
member to which it paid the improper $30,000 included a section on reporting requirements,
including the requirement to conduct the following reporting activities:

      “HCO Report of participants of Homebuyer Education (HBE) Program – monthly
          o Basic client report including client demographic, financial, and AMI [area median
              income] information consistent with HUD 9902 report
          o Sign-in sheets for every HBE class
          o LA NHS HBE survey

      Outreach Report – monthly
          o Event details - including outreach materials and number of participants reached
          o Written material distribution - number of materials distributed and description of
              geographic area targeted.”

Neighborhood Housing Services’ NSP2 Policies and Procedures, Section III, General
Requirements of NSP2 - (I) Requirements for Subrecipients (or Development Partners), stated
that Neighborhood Housing Services would “monitor Subrecipients (or Development Partners)
to ensure the NSP2 funds are being used in accordance with all program requirements and that
Subrecipients (or Development Partners) are adequately performing as required under
subrecipient agreements and procurement contracts. If performance problems arise, LA NHS
will take appropriate actions as described in 24 CFR 570.910.”




                                               24
Neighborhood Housing Services’ NSP2 Policies and Procedures, Section III, General
Requirements of NSP2 - (V) Monitoring, read, “During the period of affordability, LA NHS will
perform on-site compliance and monitoring inspections of all single-family and multi-family
developments utilizing NSP2 funds to determine compliance with the applicable regulations and
requirements outlined in this manual and NSP2 regulations.”




                                             25
